DOE/IG-0428


         AUDIT
        REPORT

                                             THE
                                 U.S. DEPARTMENT OF ENERGY'S
                                   EFFORTS TO PRESERVE THE
                                   KNOWLEDGE BASE NEEDED
                                   TO OPERATE A DOWNSIZED
                                  NUCLEAR WEAPONS COMPLEX




                                             OCTOBER 1998



    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                        October 2, 1998



MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman
                       Acting Inspector General

SUBJECT:               INFORMATION: Audit Report on "The U.S. Department of Energy's
                       Efforts to Preserve the Knowledge Base Needed to Operate a Downsized
                       Nuclear Weapons Complex"

BACKGROUND

In the past, nuclear testing and the continuous development of new nuclear weapons have been
the basis for confidence in the safety, reliability, and performance of the nuclear weapons
stockpile. However, due to recent changes in the U.S. nuclear posture, confidence in the
stockpile must now be sustained without these activities. Specifically, the Department of Energy
(Department) has ceased conducting nuclear tests, production of fissile materials, and production
of new-design nuclear warheads. The Department must now rely on scientific understanding and
expert judgment, rather than on nuclear testing and the development of new weapons, to predict,
identify, and correct problems affecting the stockpile. The scientific understanding and judgment
will be based on the knowledge created by the Department and its predecessor agencies
throughout the history of the nuclear weapons program, as well as such factors as nonnuclear
testing and advanced computer modeling.

To preserve the knowledge base, the Department must assemble, maintain, and assure user-
friendly access to a comprehensive, well-organized archive of data, information, and knowledge
regarding nuclear weapons. The objective of this audit was to determine whether the
Department had developed a program to preserve the knowledge base needed to operate a
downsized nuclear weapons complex. In particular, we assessed the Department's efforts to
preserve the data, information, and knowledge needed to ensure the vitality of the weapons
complex.

RESULTS OF AUDIT

The Department had not developed a coordinated, integrated program to preserve the
knowledge base of the downsized nuclear weapons complex. Although each of the weapons
complex sites included in our audit was conducting archiving and knowledge capture activities,
there was little overall consistency among the sites in terms of planning, approach, and progress
made. This situation occurred because the Office of Defense Programs had not assigned
programmatic responsibility for development and implementation of a performance plan for
knowledge preservation activities that would address issues such as the nature, timing, and
funding of such activities and had not assigned programmatic responsibility for the integration of
site activities.
Without a coordinated, integrated program for knowledge preservation, the Department risks
not identifying and using all information that would provide continued high confidence in the
nuclear stockpile. Specifically, the Department cannot ensure that all relevant information will
be included in a comprehensive, well organized, and easily accessible knowledge base, and that
priorities for the capture of data, information, and knowledge are appropriate and consistent
throughout the nuclear weapons complex. In addition, disparities in knowledge preservation
planning, approach, and progress may raise impediments to the integration of the various site
activities.

MANAGEMENT REACTION

The Assistant Secretary for Defense Programs concurred with our report's findings, conclusions,
and recommendation. Consistent with our recommendation, the Assistant Secretary has
designated the Director of Advanced Design and Production Technologies as the program
official responsible for archiving, and for overseeing the development of a strategic plan to
address the issues noted in our report. The Assistant Secretary stated that a final draft of the
plan will be completed by January 15, 1999.

Attachment

cc: Deputy Secretary
    Under Secretary
THE U.S. DEPARTMENT OF ENERGY'S EFFORTS TO PRESERVE
THE KNOWLEDGE BASE NEEDED TO OPERATE A DOWNSIZED
NUCLEAR WEAPONS COMPLEX




TABLE OF
CONTENTS



               Overview

               Preserving The Knowledge Base Of The Nuclear
               Weapons Complex ..............................................................................1


               Preservation Of Data, Information, And Knowledge

               Details of Finding...............................................................................4

               Recommendation and Comments ........................................................7


               Appendices

               1. Scope and Methodology................................................................9

               2. Prior Reports ..............................................................................10

               3. Assistant Secretary Comments.....................................................11
OVERVIEW

INTRODUCTION AND   Maintaining a credible nuclear deterrent is a cornerstone of U.S. national
OBJECTIVE          security policy. The President has stated that the maintenance of a safe
                   and reliable nuclear weapons stockpile is a supreme national interest.
                   The Department of Energy's (Department) Office of Defense Programs
                   is charged with ensuring the safety, reliability, and performance of this
                   stockpile. In the past, nuclear testing and the continuous development
                   of new nuclear weapons have been the basis for high confidence in the
                   stockpile. However, due to recent changes in the U.S. nuclear posture,
                   confidence in the stockpile must now be sustained without these
                   activities. Specifically, the Department has ceased conducting nuclear
                   tests, production of fissile materials, and production of new-design
                   nuclear warheads.

                   The Department must now rely on scientific understanding and expert
                   judgment, rather than on nuclear testing and the design and production
                   of new weapons to predict, identify, and correct problems affecting the
                   safety, reliability, and performance of the stockpile. The scientific
                   understanding and judgment will depend on the base of knowledge
                   created by the Department and its predecessor agencies throughout the
                   history of the nuclear weapons program, as well as non-nuclear tests and
                   advanced computer modeling. To preserve and use the knowledge base,
                   the Department must assemble, maintain, and assure user-friendly access
                   to a comprehensive, well-organized archive of data, information, and
                   knowledge regarding nuclear weapons.

                   Elements of knowledge preservation include archiving of data and
                   information, as well as recording of interviews with weapons experts
                   who have retired or will retire in the near future. Archiving activities
                   consist of researching, cataloging, analyzing, and preserving the design,
                   test, engineering, materials, and manufacturing data for weapons and
                   weapons effects experiments, and making this base of knowledge
                   accessible for use in current operations across the weapons complex.
                   Preservation and reanalysis of past nuclear and non-nuclear test data will
                   be used to validate new experimental facilities and improved
                   computational capabilities to be used in predicting, identifying, and
                   correcting problems affecting the stockpile in the future.

                   Interviews with retiring or retired weapons experts (hereafter referred to
                   as knowledge capture activities) provide, from individuals and panels of
                   experts in a particular weapon area, information that despite its value,
                   may not be formally documented. Such information includes knowledge
                   about problems encountered in designing the weapon, reasons for design


Page 1                                              Preserving The Knowledge Base Of
                                                       The Nuclear Weapons Complex
                  choices, operational safety, and the "art" of weapons design and
                  production. Both archiving and knowledge capture activities will be
                  used to train the new generation of personnel that will provide the
                  technical judgment needed for future stockpile assessments.

                  The objective of this audit was to determine whether the Department
                  had developed a program to preserve the knowledge base needed to
                  operate a downsized nuclear weapons complex. In particular, the
                  objective included assessing the Department's efforts to preserve the
                  data, information, and knowledge needed to ensure the vitality of the
                  weapons complex.


CONCLUSIONS AND   The Department had not developed a coordinated, integrated program
OBSERVATIONS      to preserve the knowledge base of the downsized nuclear weapons
                  complex. Although each of the weapons complex sites included in our
                  audit was conducting archiving and knowledge capture activities, there
                  was little overall consistency among the sites in terms of planning,
                  approach, and progress. The Office of Defense Programs, which is
                  responsible for ensuring the safety, reliability, and performance of the
                  nuclear weapons stockpile, had not assigned programmatic responsibility
                  for developing and implementing a performance plan for knowledge
                  preservation and for integrating site activities. A plan is needed to
                  address the nature, timing, and funding of knowledge preservation
                  activities throughout the Department. An integrated program is also
                  needed to ensure that all relevant information is included in a
                  comprehensive, well organized, and easily accessible knowledge base,
                  and that priorities for the capture of data, information, and knowledge
                  are appropriate and consistent throughout the weapons complex.

                  Effective October 1, 1998, the Government Performance and Results
                  Act of 1993 will require the Department to prepare performance plans
                  that complement its Strategic Plan. This planning process provides the
                  means to ensure that the activities of the organizational components of
                  the nuclear weapons complex are consistent with one another and with
                  the Department's strategic goals and objectives. Consistent with this
                  Act, we recommend that the Assistant Secretary for Defense Programs
                  assign programmatic responsibility for developing and implementing a
                  performance plan for knowledge preservation activities and for
                  integrating site activities. This will help ensure that site knowledge
                  preservation priorities and activities are appropriate and consistent with
                  one another and with overall knowledge preservation goals of the
                  Department.

Page 2                                             Preserving The Knowledge Base Of
                                                      The Nuclear Weapons Complex
         Two prior Office of Inspector General reports, which also discuss
         Departmental efforts to collect and utilize information, are discussed in
         Appendix 2.




                                               ________/S/___________
                                               Office of Inspector General




Page 3                                    Preserving The Knowledge Base Of
                                             The Nuclear Weapons Complex
PRESERVATION OF DATA, INFORMATION, AND KNOWLEDGE

Approaches            Each of the weapons sites included in our audit was conducting
To Knowledge          archiving and knowledge capture activities. However, there was little
Preservation Differ   overall consistency among the sites in terms of planning, approach, and
                      progress.

                                                       Planning

                      Planning for knowledge preservation activities was inconsistent across
                      the weapons complex. Sandia National Laboratories (Sandia),
                      Lawrence Livermore National Laboratory (Livermore), the Y-12 Plant
                      (Y-12), and the Pantex Plant (Pantex) had developed plans that
                      encompassed archiving and knowledge capture activities. However,
                      Los Alamos National Laboratory (Los Alamos) and the Kansas City
                      Plant (Kansas City) had not yet developed overall plans for archiving
                      and knowledge capture. In addition, the plans that were prepared did
                      not always address important issues related to knowledge preservation
                      activities.

                      For instance, Sandia's implementation plan for archiving activities dealt
                      mainly with providing the infrastructure and standards for the electronic
                      archiving, storage, retrieval, and exchange of information. Important
                      issues such as the creation of comprehensive indices of site information
                      holdings, which information should be electronically archived, and
                      prioritization for these activities were not addressed. Further,
                      Livermore's plan was comprehensive in terms of the knowledge
                      preservation strategies it discussed, but lacked sufficient detail as to
                      how these strategies would be accomplished. For example, the plan
                      discusses the importance of being able to identify what information
                      exists and where it is located by searching across collections of
                      bibliographic data from various sources. However, the implementation
                      steps indicate only that this will encompass one specific collection of
                      such data and "several others," and do not specify how this search
                      capability will be provided.

                                                      Approach

                      The weapons complex sites visited also lacked uniform approaches to
                      knowledge preservation activities. For example, in conducting
                      knowledge capture activities, Sandia had produced over 870 videotapes
                      covering 132 individual and panel discussions on weapon-related
                      topics, and initiated a pilot project to convert the video to digital format
                      so that it could be viewed and searched using a desktop computer. The


Page 4                                                                      Details Of Finding
         project leader for this activity estimated that the cost-to-date was
         approximately $4.5 million. She added that Sandia planned to produce
         another 60 videotapes in the future, and digitally format videotapes to
         provide desktop access and search capability for all videos. Los Alamos
         also conducted knowledge capture activities, but had videotaped only
         about 24 panel discussions and had no plans to convert them to digital
         format. A Los Alamos official estimated that the videotapes cost
         approximately $400,000 to produce. In contrast, Pantex had initiated a
         video knowledge capture project, but changed its approach because
         officials believed that the videotapes did not provide value-added
         information. Pantex is continuing to capture knowledge through
         interviews, but documents the results on paper rather than via videotape.
         While each site may have unique needs, the dissimilar levels of effort and
         resources devoted to these activities illustrate the need for a coordinated
         and agreed upon knowledge preservation approach among the weapons
         sites if information is to be effectively and efficiently shared among sites.

                                          Progress

         Progress in conducting knowledge preservation activities also varied
         among the sites. In general, the weapons laboratories had made greater
         progress than the production plants in implementing archiving and
         knowledge capture programs. As noted above, Sandia and Los Alamos
         had made significant progress in conducting knowledge capture
         activities. Livermore had also initiated a knowledge capture project,
         completed approximately 200 hours of videotaped interviews, and
         planned to add digital video search capability via desktop computer.
         With respect to archiving, Sandia had efforts underway to electronically
         archive and provide better access to weapons data. At Los Alamos,
         eight laboratory divisions have converted information to electronic
         format and made it available "on-line." Livermore had created a
         database of nuclear design data and information containing over 4,000
         documents and over 8,000 data files with full content search capabilities.

         In contrast, Y-12 had completed a knowledge capture project
         encompassing nuclear safety, hazardous and toxic material handling, and
         critical production processes, but was unable to implement planned
         archiving activities. Pantex had established the capability to convert
         documents to electronic format and conducted a pilot project to archive
         data for 11 production units of a particular weapons system, but was
         unable to fully implement planned archiving activities. Officials at Y-12
         and Pantex indicated that they lacked the funding to do so. Kansas City


Page 5                                                          Details Of Finding
                      had conducted pilot archiving and knowledge capture projects, but
                      limited expansion of these efforts pending more unified Departmental
                      direction regarding these activities.


Preservation Of The   The Department's Stockpile Stewardship Plan (SSP) illustrates the
Stockpile Without     importance of efforts to preserve the knowledge base of the nuclear
Nuclear Testing       weapons complex. The SSP describes how the Office of Defense
                      Programs will continue to ensure high confidence in the nuclear
                      weapons program as the U.S. national security strategy shifts from the
                      design, production, and testing of weapons to science-based stewardship
                      of a smaller, less diverse stockpile. Specifically, the SSP states that a
                      critical element in maintaining the nuclear weapons stockpile and
                      associated hardware in the absence of nuclear testing is the ability to
                      assemble, maintain, and assure user-friendly access to a comprehensive,
                      well-organized record of past weapons design and testing data, weapon
                      effects testing data, and scientific and engineering experience. The
                      Department's efforts to archive and capture data, information, and
                      knowledge are intended to create this base of information.


Programmatic          The Department had not developed a coordinated, integrated program
Responsibility And    for knowledge preservation because the Office of Defense Programs had
Performance Plan      not assigned programmatic responsibility for developing and
                      implementing an overall performance plan and for integrating the various
                      site efforts. Although the need for knowledge preservation was
                      articulated in the SSP, the Office of Defense Programs had not
                      developed a policy or plan that addressed key issues such as the nature,
                      timing, extent, and funding of knowledge preservation activities
                      throughout the weapons complex, as well as the responsibility for and
                      approach to the integration of site efforts.

                      While the Nuclear Weapons Information Group (NWIG) was chartered
                      to assume leadership and provide guidance related to nuclear weapons
                      information management issues, it did not have sufficient authority to
                      address major issues such as funding of knowledge preservation
                      activities at specific sites. Rather, NWIG is a collaborative working
                      group that includes members from each of the Department organizations
                      involved in nuclear weapons research, development, testing, and
                      production. NWIG has been working primarily towards developing a
                      uniform indexing system for identifying information held at each site,
                      developing standards for long-term storage of information and


Page 6                                                                    Details Of Finding
                   transmission of information between sites, and developing a
                   methodology to preserve need-to-know access controls when
                   information is electronically accessed. NWIG does not have authority
                   over the implementation of these standards at the sites or over the
                   timing, extent, and funding of site efforts.


Critical Element   Without a coordinated, integrated program for knowledge preservation,
Of Stockpile       the Department risks not identifying and using all information that would
Stewardship        provide continued high confidence in the nuclear stockpile. In the
                   absence of programmatic responsibility for developing and implementing
                   an overall performance plan for knowledge preservation, and integrating
                   site efforts, the Department cannot ensure that all relevant information
                   will be included in a comprehensive, well organized, and easily
                   accessible knowledge base and that priorities for the capture of data,
                   information, and knowledge are appropriate and consistent throughout
                   the nuclear weapons complex. In addition, disparities among weapons
                   complex sites in the planning, approach, and progress of knowledge
                   preservation activities may impede the integration of site efforts.
                   Resolution of these issues is especially important so that the knowledge
                   developed over the history of the nuclear weapons program can be used
                   as baseline information to validate new experimental facilities and
                   improved computational capabilities to be used in predicting, identifying,
                   and correcting problems affecting the stockpile in the future.


RECOMMENDATION     We recommend that the Assistant Secretary for Defense Programs
                   assign programmatic responsibility for developing and implementing a
                   performance plan for knowledge preservation activities and for
                   integrating site activities throughout the Department for the nuclear
                   weapons complex. The plan should include requirements for:

                      • the nature, timing, and extent of archiving and knowledge
                        capture activities;

                      • funding of archiving and knowledge capture activities; and

                      • responsibilities for and approach to the integration of the
                        weapons complex site efforts to assemble, maintain, and assure
                        access to a comprehensive, well-organized record of past
                        weapon design and testing data, weapon effects testing data, and
                        scientific and engineering experience.


Page 7                                                 Recommendation and Comments
MANAGEMENT   The Assistant Secretary for Defense Programs concurred with report's
REACTION     findings, conclusions, and recommendation. Consistent with our
             recommendation, the Assistant Secretary has designated the Director of
             Advanced Design and Production Technologies as the program official
             responsible for archiving, and for overseeing the development of a strategic
             plan to address the issues noted in our report. The Assistant Secretary stated
             that a final draft of the plan will be completed by January 15, 1999.
             Management’s specific comments are included in Appendix 3.


AUDITOR      Management's comments are responsive to our recommendation.
COMMENTS




Page 8                                                Recommendation and Comments
APPENDIX 1

SCOPE         The audit was performed between October 1997 and August 1998. We
              performed audit work at Headquarters, Sandia National Laboratories,
              Los Alamos National Laboratory, Lawrence Livermore National
              Laboratory, as well as the Y-12, Pantex, and Kansas City Plants.


METHODOLOGY   To accomplish the audit objective, we:

                 • held discussions with personnel from the Office of Defense
                   Programs regarding efforts to preserve the knowledge base of
                   the weapons complex;

                 • reviewed sections of the Department's Stockpile Stewardship
                   and Management Plan relating to efforts to archive, capture,
                   and provide enhanced access to nuclear weapons data,
                   information, and knowledge;

                 • held discussions with personnel involved in efforts to archive
                   and capture data, information, and knowledge at weapons
                   complex sites;

                 • reviewed weapons complex sites' plans relating to archiving and
                   knowledge capture activities; and

                 • evaluated site efforts to archive and capture, and provide
                   enhanced access to nuclear weapons data, information, and
                   knowledge.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely on computer-processed data to accomplish our audit objective.

              An exit conference was waived by the Office of Defense Programs.




Page 9                                                     Scope And Methodology
APPENDIX 2

PRIOR OFFICE OF     This review concerned the Department's efforts to develop an
INSPECTOR GENERAL   integrated approach to collect and facilitate the use of information.
REPORTS             Prior Office of Inspector General reviews related to such efforts
                    include:

                       • Audit of the Department of Energy's Scientific and Technical
                         Information Process, Report Number DOE/IG-0407, dated
                         June 17, 1997. This audit found that (1) the Department and
                         its contractors had not implemented systems to effectively
                         identify, collect, and disseminate scientific and technical
                         information on a life-cycle basis as required and (2) the Office
                         of Scientific and Technical Information was not receiving all
                         scientific and technical information generated by the
                         contractors.

                       • Audit of Departmental Receipt of Final Deliverables for
                         Grant Awards, Report Number DOE/IG-0415, dated
                         December 4, 1997. This audit found that many grantees did
                         not provide final technical and financial reports. Without final
                         deliverables, the Department could not demonstrate that the
                         public benefit specified in the grant instrument was achieved.




Page 10                                                                     Prior Reports
APPENDIX 3

DOE F 1325.8
(08-93)
United States Government                                                      Department of Energy


memorandum
    DATE:      September 8, 1998
 REPLY TO
 ATTN OF:      DP-44.L.Thomas-3-6572
 SUBJECT:      Initial Draft Report on "The U.S. Department of Energy's Efforts to Preserve The Knowledge
               Base Needed to Operate A Downsized Nuclear Weapons Complex"

       TO:     Acting Deputy Inspector General for Audit Services, IG-30


               Thank you for the opportunity to review and comment on the subject draft report.

               Overall, Defense Programs (DP) agrees with the report's findings, conclusions, and
               recommendations. As indicated in the attached Management Response to the report, DP
               recognizes the importance of preserving the information and knowledge base of the nuclear
               weapons program and has already taken substantive actions to ensure such preservation.
               Toward that end, and consistent with the Inspector General's recommendations, DP has
               designated the Director of Advanced Design and Production Technologies as the program
               official responsible for archiving responsibilities and for overseeing the Nuclear Weapons
               Information Assessment Working Group's development of a strategic plan to address this
               issue. The DP Management Response provides a more complete picture of DP effort in this
               area and we strongly suggest these comments be included in the report.

               We look forward to receiving the final report when it is completed. In the meantime, if you
               have any questions, please do not hesitate to contact Linda Thomas, of the DP Audit Liaison
               Staff, at 3-6572.



                                                     Victor H. Reis
                                                     Assistant Secretary
                                                       for Defense Programs

               Attachment



Page 11                                                                  Assistant Secretary Comments
                                 MANAGEMENT RESPONSE
                          ON INSPECTOR GENERAL DRAFT REPORT,
             "THE U. S. DEPARTMENT OF ENERGY'S EFFORTS TO PRESERVE THE
          KNOWLEDGE BASE NEEDED TO OPERATE A DOWNSIZED NUCLEAR WEAPONS
                                       COMPLEX"


          INFORMATION MANAGEMENT:

          • DP recognized the importance of preserving the information and knowledge generated by
            the weapons program. As a result, DP charted the Nuclear Weapons Information Group
            in November 1995. This group was to define and develop requirements, tools, and
            formats to enable continuing and appropriate access to nuclear weapons data, information,
            and knowledge across the complex.

          • The Deputy Assistant Secretary for Military Applications and Stockpile Management
            issued an April 25, 1997, memorandum requesting a plan to immediately begin archiving,
            in an electronically retrievable format, data being routinely being generated in the weapons
            program.

          • This activity was re-articulated again in October 1997 with assigning of archiving
            responsibilities to the Director, Office of Advanced Design and Production Technologies.

          • On February 5, 1998, the Deputy Assistant Secretaries for Research and Development
            DP-10, Military Applications and Stockpile Management, DP-20, and Modeling and
            Simulation, DP-50, directed an assessment to take a comprehensive look at archiving
            activities across the complex and provide a report of current activities and future needs by
            June 30, 1998.

          • The Nuclear Weapons Information Assessment Working Group (NWIAWG) was formed
            to carry out this assessment. The NWIAWG completed it's work in June and briefed the
            Deputy Assistant Secretaries for DP on the assessment results on June 17, 1998. The
            DASs agreed with the findings and recommendations and directed that a strategic plan be
            written to address the management of nuclear weapons information and for integrating
            these weapons information management and knowledge preservation activities across the
            complex. Strategic planning to address the finding of the working group report and the
            IG report will commence on September 1, 1998, with a final draft plan to be completed by
            January 15, 1999.

          DNFSB 93-6:

          Weapons Safety Specifications (WSS) Archiving Program Pursuant to the DNFSB 93-6
          Maintaining Access to the Nuclear Weapons Expertise:

Page 12                                                                  Assistant Secretary Comments
          • The DOE Implementation Plan, dated October 13, 1995, which was initiated in fiscal year
            (FY) 1995 for the Weapons Archiving Program for the WSS documents delegates the
            implementation responsibilities to appropriate operations and area field office program
            managers. The plan identified 12 weapons systems/programs (7 LANL and 5 LLNL
            systems) for archiving and knowledge preservation for each WSS to be completed over a
            3 year period. FY 1998 is the final year of this implementation plan. Examples of the
            weapons systems that were completed over the 3 year period are: W69, W56, W76, B53,
            W62, W78, B61 (all mods), W87, and W88. The following weapons systems are in
            various stages of completion and they are scheduled for completion in FY 1998: B83,
            W80, W84. The requirement to perform knowledge capture in conjunction with WSS
            development was also completed in the above weapons systems.

          • Funding for these programs was allocated without a separate individual line-funding for
            the knowledge preservation and archiving programs, however, funds were allocated from
            the overall weapons production and stockpile management budget. This funding
            arrangement has worked well and is planned to continue in the future.

          • In order to support the production archiving program staff participation in various
            archiving program supporting activities, on December 3, 1996, the Deputy Assistant
            Secretary for Military Applications and Stockpile, DP-20, memo requested the
            Albuquerque Operations Office (AL) to create a funding mechanism (code) that the
            production plants staff can charge against in order to support the nuclear weapons
            information group activities.




Page 13                                                                Assistant Secretary Comments
                                                                    IG Report No. DOE/IG-0428

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       Department of Energy Human Resources and Administration Home Page
                            http://www.hr.doe.gov/ig


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.


                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
